CERTIFICATE OF SERVICE
NO. TBD
Chestnut Hill Sound Inc.
Petitioner(s)
v.
Apple Inc.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
CHESTNUT HILL SOUND INC. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by Fedex 2-day for delivery to the following addresses:
Juanita R. Brooks
Fish & Richardson, PC
12390 El Camino Real
San Diego, CA 92130
858-678-5070
brooks@fr.com
Counsel for Apple Inc.

Noel J. Francisco
Solicitor General of the U.S.
Department of Justice
950 Pennsylvania Ave NW, Rm. 5614
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov
Counsel for United States of America

Lucas DeDeus

October 29, 2019
SCP Tracking: Mosser-14801 Quorum Drive-Cover White

